<html>
<title> - NOMINATION OF DAVID M. STONE</title>
<body><pre>[Senate Hearing 108-602]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-602

                      NOMINATION OF DAVID M. STONE

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                 ON THE

NOMINATION OF DAVID M. STONE, OF VIRGINIA, TO BE ASSISTANT SECRETARY OF 
 HOMELAND SECURITY, TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT 
                          OF HOMELAND SECURITY

                               __________

                             JUNE 23, 2004

                               __________

      Printed for the use of the Committee on Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
95-192                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Deleware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas
           Michael D. Bopp, Staff Director and Chief Counsel
                    Johanna L. Hardy, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
           Jennifer E. Hamilton, Minority Research Assistant
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Lautenberg...........................................     5
    Senator Akaka................................................     6
    Senator Dayton...............................................    18
    Senator Carper...............................................    22

                                WITNESS
                        Wednesday, June 23, 2004

David M. Stone, of Virginia, to be Assistant Secretary of 
  Homeland Security, Transportation Security Administration, 
  Department of Homeland Security:
    Testimony....................................................     8
    Prepared statement...........................................    29
    Biographical and professional information requested of 
      nominees...................................................    33
    Pre-hearing questionnaire and responses for the Record.......    40
    Post-hearing questions and responses for the Record..........   150
    Letter from Peter A. Iovino, Director of Legislative Affairs, 
      with attached letters clarifying answer to Question 16.a. 
      of pre-hearing questions from Mr. Stone....................   196

 
                      NOMINATION OF DAVID M. STONE

                              ----------                              


                        WEDNESDAY, JUNE 23, 2004

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Akaka, Dayton, 
Carper, and Lautenberg.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. First, let me apologize for the shifting of 
times in the commencement of this hearing. We have been trying 
to coordinate the schedule with the votes on the floor and that 
explains why it has gone back and forth. I do appreciate Mr. 
Stone's cooperation in being here and I know that he has been 
looking forward to this day.
    The Committee on Governmental Affairs is holding this 
hearing to consider the nomination of David Stone to be the 
Assistant Secretary of Homeland Security for the Transportation 
Security Administration.
    Since it was created in November 2001, the TSA has made 
great strides in improving the security of our Nation's 
transportation systems. These have been particularly evident in 
the field of aviation security. With hundreds of commercial 
airports, thousands of commercial aircraft and millions of 
passengers passing through our airports each day the job of 
securing our aviation system has been and continues to be an 
enormous task.
    Despite the significant challenges facing this young 
agency, the TSA accomplished its goal of hiring and deploying 
more than 55,000 airport screeners by November 19, 2002. The 
TSA also quickly expanded the ranks of Federal air marshals, 
from only approximately 50 shortly after the September 11 
attacks to thousands now. And it has made substantial progress 
in its checked baggage and passenger screening operations.
    In addition, the TSA has awarded millions of dollars in 
grants for airport terminal security, commenced a pilot program 
to test new technologies aimed at monitoring and securing 
access to controlled areas and begun efforts to conduct 
vulnerability assessments at certain airports.
    Let me commend you, Admiral Stone, and the hardworking men 
and women of the TSA for the remarkable progress that the 
agency has made in a very short time.
    Despite all this progress, however, there is still 
significant room for improvement and much more work that 
remains to be done. Recent reports by the General Accounting 
Office, including one requested by our distinguished Ranking 
Member, make clear that vulnerabilities persist and systems are 
imperfect.
    The TSA must, for example, increase its efforts to improve 
the security of airport perimeters. It must also take 
additional steps to ensure the integrity of the one million 
airport workers who have full access to sensitive areas. And it 
faces a particular challenge in improving security in general 
aviation.
    Understandably, TSA has focused much of its efforts on 
securing our airways. The agency has really only begun to 
address the other vulnerabilities of our transportation modes 
such as maritime and rail. Our Nation's ports in particular, 
may well present the greatest vulnerabilities through the 
global cargo container system. Approximately six million cargo 
containers arrive in U.S. ports each year. Although our ability 
to target at-risk containers continues to improve, the 
potential remains for containers to be used to deliver a dirty 
bomb or even terrorists themselves to our Nation's shores.
    Passenger vessels, including ferries, are also considered 
by some security experts as possible targets for terrorists. On 
July 1, the screening of passengers, cargo and baggage will be 
required on ships and ferries under the Maritime Transportation 
Security Act. while these measures are intended to improve 
security on our waterways we must be mindful that these new 
requirements also entail a significant cost to the industry and 
its passengers.
    TSA and other Federal enforcement agencies must adopt a 
practical approach to effectively balance security and 
efficiency.
    Admiral Stone will also be responsible for implementing the 
new Computer-Aided Passenger Prescreening System known as CAPPS 
II. The TSA continues to face challenges in designing and 
testing the system in a way that protects the privacy of 
personal data of passengers while targeting those who do 
require additional scrutiny.
    Finally, Admiral Stone has reiterated the Department's 
commitment to ensuring that every State receives a base level 
of homeland security grant assistance. This is critically 
important to smaller States like my home state of Maine. We, in 
Maine, are acutely aware that two of the September 11 
hijackers, including the ringleader, Mohammed Atta, started 
their journey of death and destruction from Portland, Maine. 
Each and every State now requires a certain level of funding to 
meet a baseline level of competencies.
    The mission of the TSA is by no means an easy one. The 
challenges that Admiral Stone will face if confirmed will 
continue to be significant and, in some cases, daunting.
    I have little doubt however that with his extensive 
background and experience with the TSA and the Navy, as well as 
his lifelong commitment to public service, that Admiral Stone 
will continue to meet these challenges successfully.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman. My 
thoughts mirror yours to a large extent.
    I am glad to welcome Admiral Stone here to thank you for 
your long and distinguished record of public service to your 
government and also, I suppose, more directly to the American 
people. You have had a proud career in the U.S. Navy, during 
which you demonstrated both a readiness and an ability to 
protect our national interests and make America safer.
    Since December of last year you have been serving ably as 
Acting Transportation Security Administrator and therefore you 
have certainly earned our appreciation and respect for your 
service and your dedication to our country.
    The tasks ahead of you at TSA, as I would guess by now you 
know, are truly awesome and will really call on that sense of 
service and dedication. The administrator, in this moment in 
our history, has got to be willing to take bold and aggressive 
actions to meet the Nation's remaining and very pressing 
transportation security needs. And these are, unfortunately, 
considerable.
    After September 11, obviously our most urgent concern was 
to close the growing gaps in air security that allowed the 19 
terrorists to pass through the security gates at those three 
airports, board four planes, and use them to destroy human life 
on a massive scale. We, in Congress, quickly passed the 
Aviation and Transportation Security Act and the Transportation 
Security Administration was born.
    Since that time, TSA has worked hard to establish a more 
professional comprehensive screening process for passengers and 
their baggage. And as TSA's first Federal Security Director at 
the Los Angeles International Airport, Admiral Stone, you led 
the effort to train and deploy the largest screener workforce 
in the country. And you did that ahead of schedule.
    But passenger screening checkpoints are, as you know, just 
one piece of the transportation security challenge. What of 
security in the back parts of the airports, behind the scenes, 
on the tarmac or air cargo screening and detection of 
explosives on passengers?
    TSA's failure to deal thus far with the security challenges 
in those areas has, I am afraid, left airline travelers more 
vulnerable to terrorist attack than they should be almost 3 
years after September 11.
    As the Chairman mentioned, earlier this month the GAO did 
issue a report that focused on TSA's responsibilities to secure 
the tarmac and the airport perimeter, baggage and cargo 
handling areas, entrances and exits used by airport workers and 
contractors, and TSA's responsibility to ensure that airport 
workers are thoroughly screened before they enter those secure 
areas.
    As I am sure you know, the GAO found that the TSA had only 
just begun, and in some cases had not yet begun, to fulfill its 
statutory obligations to safeguard those areas of airports.
    TSA has no overall picture of the vulnerabilities and 
secure areas at the Nation's 400 commercial airports, GAO said, 
nor does it have a plan for how it will address its 
responsibilities for the back of the airport areas.
    Another missing piece in the security picture is adequate 
anti-terrorist training for flight attendants. They are, after 
all, the first responders, perhaps the first preventers in 
airplane security. Since September 11, we have placed thousands 
of air marshals aboard planes to protect passengers. Thank God 
we have. We have hardened cockpit doors and allowed pilots to 
carry guns to protect themselves.
    Yet most flight attendants have been left, if you will, 
virtually defenseless, at least unprepared to defend themselves 
and their passengers. I hope, Admiral Stone, that you will 
carefully focus on this gap and work to establish guidelines 
and timetables so that flight attendants might learn the basics 
of self-defense, self-protection and passenger protection in 
the event of future hijackings.
    If TSA's work on aviation security is incomplete, the job 
of securing other modes of transportation has barely begun. And 
yet I fear the Administration has sought very little money to 
secure our vast rail networks and the subways and buses used by 
millions of commuters every day that we have seen in other 
countries unfortunately have become a target of terrorists.
    We still need better measures to protect rail shipments of 
hazardous materials. We need video surveillance, chemical and 
radiological detection, improved communications and other 
monitoring devices to deter potential attacks within our mass 
transit systems. The American Public Transportation Association 
has identified at least $6 billion in security needs. But local 
systems need Federal help to improve their security, and so far 
the DHS has allocated only about $115 million to help.
    TSA has taken no concrete steps to protect our vast web of 
oil and gas pipelines, again as we have seen elsewhere in the 
world, targets of terrorists. Given the geographic expanse of 
this network, protecting it clearly poses extraordinarily 
difficult challenges. But our pipelines must be secure to 
ensure uninterrupted delivery of these vital resources and 
prevent the kind of economic disruption that we know the 
terrorists want to bring to our homeland.
    Finally, TSA has not yet produced a comprehensive 
transportation security strategy for identifying 
vulnerabilities and putting solutions in place. This plan has 
been far too long in the making, given its importance in 
establishing the roles and responsibilities and priorities of 
your agency. So there is no resting on the laurels and 
achievements of improved airline passenger safety, as am sure 
you know.
    As a matter of fact, as I list the agenda ahead of you of 
as yet to be met security challenges in transportation, I must 
say I not only admire your record of service in the past to our 
country, I admire your willingness to take on this assignment.
    And a final word, and I think you know this and I count on 
you to carry it through, the TSA administrator, in addition to 
being the administrator, also has an important responsibility 
to be a very aggressive advocate within the Administration and 
before Congress to win the funding and support necessary to 
meet the full range of security challenges that we face in this 
new age of terrorism. I know that you have all that it takes to 
do that and I look forward to working with you to assure your 
success in this new assignment. Thank you.
    Chairman Collins. Thank you, Senator. Senator Lautenberg.

                STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman.
    Welcome Admiral Stone. We are pleased to see you here. I 
share the view, the complimentary view just expressed by our 
colleague, Senator Lieberman, and the Chairman as well, about 
your capacity to do to this job.
    We think you need help. Not you personally, but in terms of 
what the budget commitments are seem to be insufficient. I am 
concerned about how well we have done so far to beef up the 
Nation's security. The budget, currently presented, has not 
provided sufficient funding to meet our real homeland security 
needs. We know that initially the Administration resisted 
creating the Department of Homeland Security. And I do not know 
that there is any lingering concerns about their initial 
worries, but whether there is a full commitment out there to 
give the Department the resources it needs to do the job is 
still questionable.
    Now whether it is port security, rail security, funding for 
first responders, too many of our security needs are not being 
met. Too often this has resulted in DHS officials presenting 
creative programs such as cross-training air marshals and other 
schemes to try to justify not having sufficient funding to 
secure our country.
    Now Admiral, you are going to need to pull some magic, I 
think, to stretch too few dollars to get the job done. But I 
hope that you will speak up when the Administration's budget 
shortfalls and other actions increase the risk of putting 
Americans at further risk of terrorism.
    So some have said that TSA should not exist. It does exist 
and it is a mammoth undertaking that we have presented to get 
this Department, this giant organization, into functioning. One 
has to expect that, even if you are not satisfied with that. 
But based on your experience gained at the Agency of so far I 
want to hear your views about the future of the Agency that you 
have been nominated to head.
    And last, I am concerned about the ability of DHS to 
provide information to those of us in Congress who make 
inquiries. And this is not just my concern that some questions 
go unanswered for long periods of time. My concerns are shared 
by others as well and I hope that you will take a look at those 
questions that are outstanding from some months ago that have 
yet to get an answer.
    On June 9, Republican Congressman Hal Rogers, who chairs 
the Homeland Security Appropriations Subcommittee in the House 
defunded the DHS Office of Legislative Affairs in the fiscal 
year 2005 Homeland Security Appropriations Bill. That tells us 
something about the sentiment that exists out there.
    But my questions, some of which go back as far as last 
September, about aviation security and rail security and port 
security have gone unanswered and again I would like a review 
of those.
    Whether it is because the resources are not available or 
these answers are being held up by other offices of the 
Administration, that is a serious problem, Admiral, and I hope 
that your confirmation for this enormous task, and as was said 
before by our colleague, Senator Lieberman, why do you want it? 
But we are glad that you are willing to do it. We encourage you 
to give it your full ability, which is abundant.
    We thank you very much for being here.
    Chairman Collins. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman.
    I would like to add my welcome to Admiral Stone this 
morning. It is good to see you again. It was good visiting with 
you, also.
    Since its inception in 2002, the Transportation Security 
Administration has been tasked with the mammoth challenge of 
maintaining the safety of travel in the United States.
    As an open society, we naturally resist measures that 
restrict our freedom and impede our day-to-day activities. 
Managing this juxtaposition of security and freedom is a 
difficult but necessary job. And Admiral Stone, I commend you 
for your willingness to serve our country in what I am sure 
will be a very challenging position.
    I want to share with you a comment made by a former 
colleague of yours who currently serves as a TSA Federal 
Security Director. He said that when you were in training with 
him to be the first class of TSA FSDs, everyone in the class 
knew that you were going to be the one to rise to the top of 
TSA. That was his comment.
    Praise from colleagues like him is among the most valuable 
kind and I thought such an opinion should be made part of the 
record today.
    Our transportation system is critical for our homeland 
security. Whether it is the attacks of September 11, the USS 
Cole, the US Embassy in Kenya, or the UN headquarters in 
Baghdad, transportation systems have been exploited to execute 
terrorist attacks.
    TSA has made some progress in securing air travel with 
added baggage screening equipment and security of personnel, 
but more needs to be done. TSA's responsibilities extend beyond 
airport security and should therefore address all 
transportation modes. We must avoid the trap of only securing 
against past terrorist attacks and protect ourselves against 
terrorist tactics that have not yet been employed.
    American seaports are one of this country's greatest 
vulnerabilities. While security at ports has improved, the 
level of improvement does not yet correspond to the crucial 
role ports play in our economy. My home State of Hawaii, for 
example, is equally dependent on its seaports as its airports. 
These are the only two ways Hawaii can access the rest of the 
country.
    Yet the TSA budget proposal for fiscal year 2005 allocates 
only $24 million of its $5.3 billion requested budget to 
maritime and land security. That is less than 1 percent of the 
overall TSA budget. I realize that we, as a country, have put a 
high priority on aviation security since September 11, and 
rightly so, but we also must protect our other modes of 
transportation.
    Congress passed the Maritime Transportation Security Act, 
MTSA, in 2002 to increase the security requirements for U.S. 
ports. The July 1, 2004, deadline for implementation of many of 
the MTSA requirements is nearly upon us, and I am not convinced 
that our ports are ready. Less than 1 percent of port 
facilities and vessels have submitted a security plan that has 
been approved, as called for in the MTSA. Members of the Coast 
Guard have offered assurances that these plans will be 
submitted and approved by July 1, but it seems unlikely since 
the deadline is less than 2 weeks away.
    While much of the responsibility of port security has 
fallen to the Coast Guard and the Bureau of Customs and Border 
Protection, it is right to ask, ``Where is TSA?'' As the Agency 
responsible for all transportation security, TSA has a 
responsibility for maritime and land security. I do not believe 
its current budget structure adequately reflects that 
responsibility and I hope that, if confirmed, you will take a 
serious look at TSA's involvement in this area.
    I am also concerned about the impact that airport security 
privatization could have on screeners who are currently Federal 
employees. It would not be right to strip them of their status 
as Federal employees when just a few years ago they were 
recruited to TSA with the promise of joining the Civil Service. 
There needs to be a plan for how these employees' rights and 
benefits will be protected in the event that an airport opts to 
privatize. Those who are working to make our homeland a safer 
place should not slip through these so-called cracks.
    I would also like to call your attention to the National 
Transportation Security System Plan, NTSSP, which has yet to be 
delivered to Congress. In September 2003, I expressed my 
frustration with the delayed delivery of the NTSSP and now, 9 
months later, it has still not been issued. Your job is too 
hard to do in a piecemeal fashion. There must be an overall 
plan guiding TSA actions. While I understand it can be 
difficult to get reports to Congress within an assigned 
timeline, I would like to express my frustration that is a plan 
is long overdue.
    Admiral Stone, I hope you will give serious consideration 
to these concerns I have mentioned. I have heard good things 
about your leadership at TSA as Acting Administrator, and I 
look forward to working with you in the future on TSA matters. 
I want to wish you well.
    Thank you very much, Madam Chairman.
    Chairman Collins. Thank you.
    As has been mentioned, Admiral Stone currently serves as 
the Acting Administrator of the TSA. Previously he served as 
Deputy Chief of Staff at TSA and as the Federal Security 
Director at the Los Angeles International Airport.
    Prior to joining TSA, Admiral Stone had a distinguished and 
impressive career in the U.S. Navy where he served for 28 
years, retiring as a Rear Admiral.
    Admiral Stone has filed responses to the biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record with 
the exception of the financial data which are on file and 
available for public inspection in the Committee's offices.
    Our Committee's rules require that all witnesses at 
nomination hearings give their testimony under oath, so Admiral 
Stone, I would ask that you stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Stone. I do.
    Chairman Collins. Admiral Stone, I understand that you may 
have a family member with you and I would invite you to 
introduce your family to the Committee at this time.
    Mr. Stone. Thank you, Madam Chairman.
    It is my pleasure to introduce my wife, Faith. Faith has 
been my guiding light in my life and we have been married for 
27 years.
    I am also privileged to have a mentor and very close friend 
of our family, Admiral Steve Abbott and his wife Marjorie here 
today. Thank you.
    Chairman Collins. Thank you, we welcome them as well.
    Admiral Stone, do you have a statement that you would like 
to make at this time?

 TESTIMONY OF DAVID M. STONE,\1\ TO BE ASSISTANT SECRETARY OF 
  HOMELAND SECURITY, TRANSPORTATION SECURITY ADMINISTRATION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Stone. Thank you, Madam Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stone appears in the Appendix on 
page 29.
     Biographical and professional information appears in the Appendix 
on page 33.
     Pre-hearing questionnaire and responses for the Record appears in 
the Appendix on page 40.
     Post-hearing questionnaire and responses for the Record appears in 
the Appendix on page 150.
---------------------------------------------------------------------------
    Good morning, Madam Chairman, Senator Lieberman, and 
distinguished Members of this Committee.
    I am grateful to you for scheduling this hearing on my 
nomination by the President for the position of Assistant 
Secretary of Homeland Security, Transportation Security 
Administration.
    I appreciated very much the opportunity meet with several 
of the Members of this Committee after the President sent my 
nomination to the Senate, and also to meet with and answer 
questions from your respective staffs. I am honored that 
President Bush has nominated me for this important position in 
the Department of Homeland Security.
    If confirmed, I will do everything in my power to serve the 
President, the Secretary, the Congress and the American people 
faithfully. I have an outstanding team at the Transportation 
Security Administration and am very proud to be a member of it.
    I have spent my entire adult life in service to our great 
Nation. After attending the Naval Academy, I proudly served in 
our Navy for almost 28 years, retiring with the rank of Rear 
Admiral. During my Navy career I had many challenging 
assignments, including four operational commands at sea. During 
those assignments I was honored to serve with some of the 
finest men and women in our Armed Forces.
    I believe my Navy experience has given me a thorough 
understanding of national security policy and a broad view of 
the requirements necessary to defend our national interests. In 
assuming increasing command responsibility over the years, I 
have developed a firm knowledge of how large organizations 
function, and how to lead, manage, and motivate people to 
ensure that the organization's strategic and operational goals 
are met.
    After my retirement from active duty, I was honored that 
Secretary Mineta selected me as one of the first Federal 
Security Directors in the newly formed Transportation Security 
Administration. I was pleased to serve as the first FSD for Los 
Angeles International Airport.
    When I arrived in Los Angeles in July, 2002 our focus was 
on meeting the two Congressional deadlines found in the 
Aviation and Transportation Security Act. The main focus was on 
the screening of passengers with Federal screeners by November 
19, 2002 and the screening of all checked baggage for 
explosives with electronic screening equipment by December 31 
of that year. Meeting those deadlines was an exceptional 
challenge.
    With the help of many dedicated people and a true spirit of 
partnership, Los Angeles International Airport was able to meet 
both deadlines. The support by all of the local entities was 
indicative of the amazing level of cooperation that all of us 
have seen time and again throughout our great country following 
the attacks of September 11.
    Themes such as leadership, caring about people, 
partnership, working as a teammate, and friendship, 
establishing trust and confidence were keys to the success at 
that airport.
    Admiral Loy, then the administrator of TSA, later asked me 
to take an assignment with him in Washington, DC. In August 
2003, I rejoined TSA at the headquarters staff as his Deputy 
Chief of Staff with a particular focus on ensuring that TSA was 
responsive to the important concerns and the direction of 
Congress.
    Four months later, in December 2003, I was named Acting 
Administrator of TSA. I am extremely grateful for the 
confidence that Secretary Ridge, Deputy Secretary Loy and 
Undersecretary Hutchinson have shown in me in asking me to 
serve in this critical position. The continued support and 
mentoring that I receive from each of them has been 
outstanding.
    As you well know, recent events have reinforced the fact 
that we live in dangerous times. Last December, the national 
threat level was raised to orange due to concern over a number 
of potential threats to homeland security, particularly in the 
aviation sector. In February and March, terrorists attacked 
subway and rail systems in Moscow and Madrid, resulting in many 
lives lost. Clearly, the transportation sector remains an 
inviting target for terrorist attacks.
    With these threats in mind, as Acting Administrator, I have 
worked to bring an intense operational focus to TSA. I am in 
the midst of giving our Federal Security Directors more 
authority in the hiring, training, testing, and managing of 
their screener workforces.
    If confirmed, I will continue down this road. I expect our 
Federal Security Directors to be engaged coordinators of the 
security program at their assigned airports. If confirmed, I 
will work to give them the tools to excel and will hold them 
accountable for their performance. Empowerment at the local 
level will be a major focus of effort.
    Intelligence is also at center stage at TSA. I chair a 
daily comprehensive review of the intelligence assembled on all 
sectors of transportation and the threats that are signaled by 
this intelligence. Together with all of my senior staff we 
review in detail daily reports from Federal Security Directors 
on incidents concerning aviation security as well as the daily 
reports of incidents affecting non-aviation modes of 
transportation.
    I take this daily briefing very seriously and make it the 
center of gravity of our workday. I use it to shape the course 
that I would like TSA to take for developing both short- and 
long-term risk mitigation planning.
    If confirmed, I plan to continue this practice so that 
every day TSA is focused on the threats to transportation 
security and prepared to rapidly bring our resources to bear on 
mitigating risk with a true sense of urgency.
    I would like to briefly address TSA's advancements in 
security in the non-aviation modes of transportation. TSA has 
made steady progress in this area and we fully realize there is 
much work left to do.
    TSA is staying attuned to the security needs across the 
transportation sector and we are engaged in risk mitigation 
efforts daily. That Secretary designated TSA with the 
responsibility to prepare an overarching sector specific plan 
for the transportation sector. As required under the National 
Infrastructure Protection Plan outlined in Homeland Security 
Presidential Directive 7, a significant portion of TSA staff is 
involved in this major undertaking. We are working in close 
coordination with DHS components, with the Department of 
Transportation and its modal administrations, and with other 
key Federal agencies, as well as appropriate stakeholders in 
developing this plan.
    Of note, TSA recently issued the first security directives 
to rail and transit operators. We are also well into phase 2 of 
our transit and rail inspection pilot, called TRIP, to evaluate 
the use of emerging technologies in a rail environment to 
screen cargo, checked and unclaimed baggage, as well as 
temporarily stored personal items for explosives. The completed 
phase 1 test at New Carrollton, Maryland evaluated screening 
passengers for explosives in a rail environment and we are 
pleased to date with the phase 2 effort ongoing at Union 
Station.
    In closing, on behalf of our organization I would like to 
thank you for your support of TSA. I fully recognize the 
critical role of Congress and if confirmed will work to ensure 
our organization is responsive and respectful of that important 
relationship.
    Madam Chairman, Senator Lieberman, and Members of the 
Committee, this concludes my prepared statement. I am looking 
forward to your questions.
    Chairman Collins. Thank you, Admiral.
    There are three standard questions that we ask of all the 
nominees who come before this Committee.
    First, is there anything that you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Stone. No.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office?
    Mr. Stone. No, I do not.
    Chairman Collins. Third, and you addressed this a little 
bit at the end of your statement, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Stone. I do.
    Chairman Collins. We will now start with a first round of 
questions limited to 6 minutes each.
    Admiral Stone, in the Department's strategic plan, the 
vision of the Department highlights preserving our freedoms as 
a priority. And indeed, as we fight the war against terrorism, 
we have to be careful not to trample on the very values that 
define us as Americans.
    One of those values is personal privacy. I have been 
concerned, as has Senator Lieberman, with the efforts that the 
TSA has made through contractors in obtaining personal 
information about passengers in anticipation of testing and 
implementing your CAPPS II screening program for airports.
    What concerns me is that the TSA has been slow to reveal 
the full extent and details of its involvement in the transfer 
of personal passenger data from airlines to the government via 
contractors.
    First we learned that TSA had assisted an Army contractor 
in obtaining personal information from JetBlue Airlines about 
its passengers. Then we learned that American Airlines shared 
with TSA personal information about its passengers. And now we 
have just learned from your responses to the written questions 
submitted by the Committee that, in addition to these two 
incidents, that companies working with TSA obtained passenger 
data from several other airlines, including Delta and 
Continental.
    By our count it looks like there may be as many as eight 
airlines that have provided passenger data. This is far beyond 
the scope of what was originally reported to me and to Senator 
Lieberman when we began to inquire about this.
    Would you agree to provide this Committee and the public 
with a detailed, thorough and complete account of TSA's 
involvement in obtaining passenger data from airlines as well 
as any plans that TSA has to secure such data in the future?
    Mr. Stone. Madam Chairman, I will commit to that. We have a 
report on the PNR data issues that you have addressed that we 
have provided to the Department of Homeland Security. It is 
their intent also to publish that on the Web after that is 
reviewed by them. I will ensure that I follow up on that and 
keep the Committee closely advised on the circumstances 
surrounding PNR data.
    Chairman Collins. The implementation of the CAPPS system 
will require the collection of that data. What is of great 
concern to me is it appears that TSA, in the initial stages, 
was proceeding--or at least contractors were proceeding--to 
start collecting that data without public notice and clear 
guidelines for protecting privacy that are required under the 
Privacy Act. What steps will you take to ensure that the Agency 
fully complies with the requirements of the Federal Privacy 
Act?
    Mr. Stone. Madam Chairman, it is very clear in my 
discussions with the Department, as well as Members of Congress 
and my own organization at TSA, that there will be no use of 
PNR data and testing of CAPPS II without making sure that all 
privacy requirements are fully met.
    Making note of Secretary Ridge's vision statement for the 
Department in which he states, ``Preserving our freedoms, 
protecting America, we secure our homeland,'' that first phrase 
of preserving our freedoms. That is on the first page of every 
briefing we give every morning at our organization. It is the 
reason why we have held a privacy education week in which we 
have provided materials to the field as well as headquarters 
about the Privacy Act. It is also why we recently hired a 
privacy officer, Ms. Lisa Dean, to spearhead our efforts.
    But the key, I truly believe, that the organization, having 
viewed in it, as we are doing from the very senior leadership, 
that this preserving our freedoms is first and foremost. And 
that anything that we do to protect America should not be 
trampling on those very freedoms that we cherish.
    So I commit to making sure that that spirit and intent is 
followed up on.
    Chairman Collins. I appreciate that. That is going to be 
very important if the Agency is going to be successful in 
implementing the CAPPS II program and similar screening 
programs.
    I mentioned in my opening statement that I view port 
security as being one of our greatest challenges and presents 
enormous vulnerabilities. The Department has several important 
efforts underway in cooperation with private industry and with 
other countries, and is increasingly successful in targeting 
at-risk cargo because obviously it is not practical to inspect 
six million containers arriving in our ports each year.
    But there is a broader issue of funding. Do you believe 
that we are adequately funding the programs that are necessary 
to enhance the security of our ports?
    Mr. Stone. I think our funding that we currently have in 
2004, and also for 2005, is appropriate funding for the risk 
mitigation efforts that we believe are necessary to protect 
America. That risk mitigation, and those actions that we take 
when we evaluate vulnerability, criticality of assets and the 
threat and make a risk-based decision, is always an ongoing 
effort.
    As that changes, I pledge to ensure that I work within the 
Department to identify any additional resources that I think 
are appropriate to reduce that risk.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks again, Madam Chairman and Admiral 
Stone. I want to pick up on a few of the points that I made in 
my opening statement.
    The first is the screening of airport workers who have 
unescorted access to secure areas of airports. TSA, I gather, 
still says that one-time employee fingerprinting is sufficient 
and physical screening would be too expensive and difficult.
    But as I am sure you know, a recent Federal investigation 
found that literally thousands of airport workers had falsified 
immigration, Social Security or criminal history information to 
gain unescorted access to secure airport areas. And in New York 
and Miami, in fact, workers unfortunately were arrested for 
smuggling drugs aboard aircraft.
    At that time Michael Garcia, DHS Assistant Secretary said, 
``a network of corrupt airport employees motivated by greed 
might just as well have been collaborating with terrorists as 
with drug smugglers''. Of course, that is the fear that we have 
and that he quite correctly stated.
    So I want to ask you what your attitude is toward the 
screening of airport workers who have unescorted access to 
these secure areas of the airports? And more generally, how can 
we be confident that we have taken all of the necessary steps 
to safeguard commercial aviation when physical screening, which 
is admittedly expensive and difficult, is not being done?
    Mr. Stone. Senator, I think that the issue of sterile 
access, SIDA access, is one of my top three issues related to 
threats, the other two being explosive technology at the 
passenger checkpoint and air cargo. So we talk daily about the 
SIDA sterile issues that you addressed.
    Therefore, I am looking at three things that I think reduce 
the risk in that area. The first thing that we are doing is to 
do enhanced background checks on the 1.2 million airport 
workers. We have already commenced a program of doing that. 
What we will be doing is running those names through the no-fly 
list, as well as any other terrorist databases, to give us an 
additional level of risk mitigation effort on our current 
airport workers.
    I also have pending at the Department security directives 
to enhance security both at the front door at the screening 
checkpoint for vendors that work within the airport, as well as 
a security directive to address enhanced security of the SIDA 
area with our presence at baggage check areas, as well as 
surveillance in the airport security plans. These two security 
directives, combined with the enhanced background check, are 
our near-term measures here to mitigate risk of the SIDA and 
sterile areas.
    We are committed as well, and are meeting regularly with 
the Civil Aviation Partnership Group which is a group of TSA--
which is composed of TSA, the ATA, as well as AAA and ACI--to 
address how we can continue to reduce the vulnerabilities in 
our SIDA areas since we are currently not doing 100 percent 
screening.
    And so I am committed to providing the Department a game 
plan for how we can continue to mitigate the risk in these SIDA 
areas through these SDs, enhanced background checks, and in the 
future to address some of the other challenges we face there.
    Senator Lieberman. That is an encouraging response and I 
thank you for it.
    Just for a moment, if you would tell me about what 
additional screening your directive would require for those who 
come on-site because they work for vendors at the airport?
    Mr. Stone. Currently at our Nation's airports we have 
workers that are part of the SIDA badging system which allows, 
in some cases, them to access the vendor businesses in our gate 
areas without going through our security passenger checkpoint. 
This security directive gets at this issue and requires that 
those workers go through our passenger screening checkpoint so 
that we have consistency on that.
    Currently, about 85 percent is the estimate that the 
industry and ourselves have given. Eighty-five percent of those 
vendors are already going through those checkpoints but we have 
some cases where, because of badging policies, that they are 
allowed to badge through and go to work in that sterile area.
    So this is the kind of vulnerability at the front door part 
that we are going after. And on the back door, the security 
directives relating to sterile insiders are planned.
    Senator Lieberman. That is excellent. That is very good to 
hear. But for now you are reluctant to go to full physical 
screening of airport workers to gain access to these secure 
areas?
    Mr. Stone. For the near-term, we do not have 100 percent 
regime planned. However, I owe the Department a plan on how I 
would do that.
    Senator Lieberman. The other question I wanted to address 
in my time here was this one of training for flight attendants. 
I have met with organizations of flight attendants and I 
presume you have, too. The Homeland Security Act of 2002 and 
the FAA Reauthorization Bill enacted last December require that 
flight attendant training programs be updated and approved. But 
thus far TSA has not taken any action that I know of to do that 
on an industry-wide basis.
    I gather that some of the airlines are doing this and some 
are not doing it very well. And it seems to me that this just 
may be one area where they are not going to do it because it 
does involve some additional expense obviously, unless the 
government mandates that they do it.
    I find encouragingly that the organizations of flight 
attendants want this additional training. And therefore I 
wanted to ask you when TSA would update its training guidance 
for airlines and take steps to ensure that flight attendants 
have the critical skills necessary to protect their passengers 
and themselves?
    Mr. Stone. We are aware that the basic training for the 
flight attendants has been a source of concern with regard to 
the standards on that. We have a proposal that we are putting 
together that we are currently coordinating with the Department 
on that, in order to get that out so that there can be a higher 
standard required for basic training.
    Our focus also is very much on the FAA Reauthorization Bill 
requirement that we have an advanced level training program 
ready for December of this year. We think we have got some 
initiatives forthcoming that will enable that to also raise the 
bar significantly for our flight attendants and the level of 
training they receive.
    Senator Lieberman. Very good. Well, I look forward to 
working with you on that and hearing your progress on those. 
Thank you.
    Chairman Collins. Thank you. Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Madam Chairman.
    Admiral Stone, the focus for the Department that you will 
be responsible for, without a doubt, they focus so much on 
aviation leaves concerns about other parts of our national 
security that must be attended to. According to the U.S. 
Attorney in Newark, the FBI has identified the stretch between 
Port Newark and Newark International Airport as the most 
dangerous 2 miles in the United States when it comes to 
terrorism. I do not know whether you are familiar with that or 
not.
    But it is a very busy area, densely packed with all kinds 
of transportation activities. And again, the kind of a place 
that terrorists depend bent on a mission of destruction can 
hide between the cracks. There is always a perimeter around 
airports that concerns me now, talking about shoulder fired 
weapons and things of that nature.
    So I wonder whether because of the relatively slow pace of 
responding to Congressional inquiries that we have had in the 
past--and I mentioned that to you--what happens when the 
general public makes an inquiry of TSA or DHS? Is there a 
system in place that gives these inquiries response and A, 
timely but B, expansively enough to make sense?
    Mr. Stone. Yes sir. One venue for that is we have our TSA 
call center which receives a number of calls every day ranging 
from baggage claim to operational concerns or a sighting of 
someone that they thought was on the be-on-the-lookout list. 
The way we are orchestrated, that report then goes, if it has 
an operational flavor, to our TSA operations center in Herndon. 
The next morning we are reading in our briefing----
    Senator Lautenberg. How many inquiries might you get in a 
given day?
    Mr. Stone. I would say we get well over 300 to 500 ranging 
from administration issues to operational ones mixed in.
    So that process is there to get visibility at the senior 
level that there has been a call, there has been either a 
credible or non-credible threat presented at Newark. And we 
then ensure that that is put out in a number of ways.
    Under our responsibilities for being responsible for five 
of the six modes of transportation, we are the lead agency for 
rail, mass transit, highways, pipeline, and aviation. And the 
Coast Guard is lead for maritime.
    Under our modal responsibilities what we do is once a week 
we hold a stakeholder outreach in which we brief all 
stakeholders nationwide who have any interest in those six 
modes, we give an intelligence update via teleconference on 
that. And we have an opportunity for folks in the field to say 
we have a threat in L.A. or Newark or Duluth.
    So that intelligence outreach, which we hold every Thursday 
with all stakeholders gives them an intelligence pulse. We also 
then talk at that forum about best practices, public education 
initiatives and emerging technologies like our portal.
    So I think we have good measures in place to have that 
information come in at the senior level and be reacted to.
    Senator Lautenberg. I asked that question in connection 
with this exposure around Newark Airport because we get lots of 
calls into my office of people worried about what their 
exposure might be.
    One of the things that is now coming up fairly frequently 
is a question about whether or not screeners assignment ought 
to be turned over to corporate or commercial hands. Have you 
had airports approaching you expressing interest in using 
contract screeners instead of TSA screeners?
    Mr. Stone. I have had a number of airport directors ask me 
about how soon will the procedures be promulgated so we can 
take a look at it. We are interested primarily from an 
efficiencies point of view.
    I have not had any airport director tell me that they have 
security concerns about the Federal screeners and therefore 
would like to opt-out.
    Very few have approached me about opting out, other than 
interested in can this be done in a more efficient and 
effective manner and will you have some guidelines that we can 
look at prior to November 19 so we can figure out what is best 
for our airport.
    Senator Lautenberg. Because it was not too long ago when we 
took 28,000 people who were screening baggage and made them 
Federal employees because the others were so inefficient and so 
rife with problems of the character of the screeners, etc. And 
now we are talking about going back the other way. It is, to 
me, a question that has to be reviewed in detail before we can 
participate in the approval there.
    The last thing I want to ask you about, are you familiar 
with complaints about material taken from baggage in the 
process of screening belonging to travelers? I know that has 
happened. Do you see that as something that you would have to 
work on?
    Because when we are asked now to make sure your bag is not 
locked, if you want to send it Federal Express they say make 
sure your bag is locked. And people do not quite understand 
this. There is a much better feeling about having a locked bag.
    On the other hand, if it requires a personal inspection or 
manual inspection then if that is the only way to do it then we 
have to do it unless we can find a way to do these things 
electronically or mechanically and not have to go through that 
routine.
    Mr. Stone. Yes, sir. I am concerned about that. It is one 
of the reasons we have asked our Federal Security Directors to 
go out and design methods in which we can verify whether we 
have some screeners that are taking items out of bags.
    Most recently, we had our Federal Security Director in New 
Orleans work an operation in which we installed a camera there 
at the airport and we found some screeners that were taking 
items. It is that sort of proactive measure that we need to be 
taking on the part of our Federal Security Directors, in 
partnership with the airport directors, to ferret out that sort 
of activity.
    Obviously, there are security concerns as well about that 
sort of access to bags and removing the items because of the 
reverse of putting something in. And so this is an area of risk 
in which we believe strongly that we need to take proactive 
measures to monitor what is going on, as we did in the New 
Orleans case.
    Senator Lautenberg. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Thank you, Admiral Stone, for your comments and your 
statement. I also want to add my welcome to your family and 
others who are here.
    I would like to take this opportunity to remind everyone 
that my home State of Hawaii is located about 5,000 miles away 
from the Nation's capital. Hawaii grapples, as you know, with 
transportation issues that other States do not have. We can 
only access the rest of the country via sea and air.
    Admiral Stone, I hope you will have the opportunity to 
visit Hawaii so you can see its unique transportation needs 
firsthand.
    My first question to you is regarding the installation of 
explosive detection systems, EDS equipment. The fiscal year 
2005 budget proposal includes $12 million for EDS machine 
installation. This funding reimburses past installations but 
will not cover any new installations, as I understand it. There 
are many airports, including Honolulu International Airport, 
that cannot fund the installation of the EDS equipment with 
State resources alone.
    Can you explain, Admiral, how TSA plans to help the 
airports that are still using lobby-based machines to relocate 
the equipment to allow for a more efficient screening process?
    Mr. Stone. Yes, sir.
    Our focus right now on that is that we take those monies 
that are apportioned to us for non-LOI expenditures and ensure 
that we apply those funds that those airports that need them in 
order to maintain full compliance with 100 percent electronic 
check.
    What we are currently engaged in is reaching out with the 
industry and the airports to find out, based on the return of 
the industry now to pre-September 11 levels, what type of 
capacity they are feeling that they are going to be 
experiencing at their individual airports so that we can then 
apply that to our future year funding.
    Right now, we are excited about the return to pre-September 
11 levels but we want to make sure we have all of the industry 
facts so that we can then apply all of the equipment and 
resources to those airports that will need those in order to 
maintain compliance with the 100 percent electronic checking.
    Senator Akaka. As a long-standing proponent for 
whistleblowers, I am concerned that TSA's position before the 
Merit Systems Protection Board has been that appeal rights to 
the Board are not permitted for claims of retaliation for 
whistleblowing. This is despite the inclusion of Section 883 in 
the Homeland Security Act of 2002, which states that the 
Department of Homeland Security shall not be exempt from 
coverage of the Whistleblower Protection Act.
    Based on this apparent contradiction, could you please tell 
this Committee why TSA has denied whistleblowers an opportunity 
to be heard by an independent adjudicatory body for claims of 
retaliation when their disclosures could show a specific and 
substantial risk to public safety?
    Mr. Stone. Senator Akaka, I pledge to find out in detail 
the background on that decision. But also, I want to make you 
very much aware that the theme of the Federal Security 
Director, being a leader at an airport and providing that 
covenant leadership for the professional growth of individuals 
under his or her charge. And also to ensure that those freedoms 
that they enjoy as citizens is something that we talk about at 
the airports frequently and make sure that screeners know that 
they have these rights and that we want to make sure we are 
following up on them enjoying those.
    So I pledge to get back with you on a more throughout 
answer on the legal background of the whistleblower piece.
    Senator Akaka. Admiral, you have stated that one of your 
goals as the TSA Administrator would be to empower the Federal 
Security Directors and allow more decisionmaking at the local 
level. How do you intend to accomplish this objective?
    Mr. Stone. The areas that we focused on in the last few 
months have been on training, hiring--those two areas in 
particular--and also on testing. Those three areas.
    We have already done a lot of work on the training piece by 
designating master trainers at our airports so that we are no 
longer required now to go to a contractor to come train our 
screeners at an airport. The preponderance of our airport 
Federal Security Directors now have master trainers from our 
workforce and they are able then to conduct the recertification 
training.
    This sort of empowerment of now letting the Federal 
Security Director determine training schedules and to ensure 
that we are not dependent on expensive contractor fees to 
retain our force and keep them certified, I think is 
significant.
    Testing, the majority of our testing 6 months ago was done 
out of a covert testing team in Washington. In the last few 
months now we have sent the testing kits out to the field and 
we have empowered the Federal Security Director to have their 
own local testing program so that they can document the local 
performance of their screeners, combined also with--we now have 
threat image projection capability on our x-ray machines that 
allows us to designate by the punch code that the screener puts 
in their performance to images that are put on that screen.
    So the empowerment of both training and testing is well 
underway and we are seeing the results of that.
    With regard to hiring, in Boston last month, we started our 
first pilot with George Naccara, our Federal Security Director, 
to hire locally. We have sent up teams from Washington to 
ensure that he and his staff have the tools that they need. We 
are going to open up future local hiring arrangements at 
Chicago O'Hare, LAX, and Houston International Airports.
    And we are going to expand this down to the lowest level so 
that we can also cut that cord to where all hiring is 
Washington, DC-centric and get it out into the field because we 
know there is tremendous efficiencies there.
    Senator Akaka. My time has expired but I just want to 
mention that I like the three key principles you had in your 
statement, that of leadership, partnership, and friendship.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator. I am waiting for the 
invitation to Hawaii that you extended to Admiral Stone.
    Senator Akaka. You have that invitation.
    Chairman Collins. Thank you. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman.
    Admiral Stone, welcome. I apologize if there is repetition, 
I missed the first part of the questioning. But certainly, 
thank you for taking on this assignment and I look forward to 
supporting your nomination.
    Just a couple of inquiries. I wanted to follow-up on what 
Senator Lieberman asked about the flight attendant training. 
You said that you were going to set up a higher level of 
training. It is my understanding that there really is not any 
training whatsoever at this point, that the airlines have their 
own on sort of a voluntary and very haphazard basis. Some of it 
is virtually non-existent.
    Is there going to be a formalized set of requirements for 
airlines? Or is there going to be some central training 
program? It just seems to me that we are overlooking an 
opportunity to have some--they are already well-qualified 
people--but well-trained people. The pilots are supposed to fly 
the plane and they are facing forward. I do not understand why 
we would not utilize this opportunity.
    Mr. Stone. Yes sir, Senator.
    We are supportive at TSA and understand that basic level of 
training has shortfalls. We have reached out to the flight 
attendant stakeholder group. They have shared with us their 
concerns. We are working what we think is a thoughtful package 
to enhance that. And our focus, as I mentioned earlier, was on 
we really want the December advance package to be something 
that is meaningful because it includes both course curriculum 
as well as the actual mat training.
    We have a number of initiatives ongoing which we think are 
innovative on how to get the advanced course moving smartly, as 
well.
    Senator Dayton. Again, my understanding is, and correct me 
if I am wrong, but there is not any advanced course, is there a 
basic course?
    Mr. Stone. The basic course is what the airlines have which 
has mixed reviews in terms of the consistency and the quality 
of it and that we have been asked and we are working to put a 
standard on that.
    Senator Dayton. Are all the airline's providing a basic 
course that meets certain requirements? And are they doing that 
on a consistent basis?
    Mr. Stone. I am told there is inconsistency in that in 
terms of the number and the type of training, and that is why 
we are moving forward to give a standard to that.
    Senator Dayton. What is the timeline then where there is 
going to be a rule or something that is going to put some teeth 
into this requirement? We are 2\1/2\ years now past September 
11. Some of these things--and the airlines, I understand, are 
under cost pressures. But when it comes to the safety of the 
traveling public, we do not know what is going to happen next. 
We do not know what is going to happen tomorrow. As we learned 
2\1/2\ weeks ago here in the Capitol, we do not know when the 
next emergency is going to occur.
    Mr. Stone. Sir, I pledge to move that through aggressively 
and keep you advised of the timeline on that.
    Senator Dayton. I just would like to also follow-up on what 
was said by Senator Lautenberg regarding the security 
personnel. I have read a report on a report recently that 
claimed that the current screening capabilities that were the 
same or similar and not very good to what preceded them. I just 
find it to be absolutely the opposite. I find an enormous 
improvement in the quality of the screening, the consistency of 
it, the professionalism, in contrast to the previous private 
contractors.
    I asked a lot of pilots and a lot of flight attendants the 
same. The only problem I have encountered is that there was a 
period where they were sufficient in number, at least the 
airports I was going through, and then TSA cut back I believe 
5,000 positions. And I found spot shortages and lines resulting 
from insufficiency of personnel but not from inadequacy of 
procedures.
    I would just ask, if there is any serious consideration 
going to be given by this Administration to privatizing any 
aspect of this, that we be notified in advance and given the 
reasons why we would want to go back to that former system.
    Mr. Stone. Yes, sir.
    Your comments concerning the professionalism of the current 
screening force, we are very proud of that. We measure that. 
The 70 percent improvement of our own testing results, I think, 
is reflective of that continuous improvement of our screeners.
    Having worked in an environment at LAX with pre-federalized 
screeners and post, I can see the night and day difference 
between the standard-setting and the consistency that we have 
had with our Federalized screening force. And we will keep you 
advised, sir, as that evolves with regard to the Screening 
Partnership Program otherwise known as Opt-out.
    Senator Dayton. I realize, Admiral, that this is out of 
your immediate jurisdiction but given your overall mandate and 
certainly the Department's responsibility for homeland 
security, we had this really alarming incident a couple weeks 
ago where a commercial plane, a State plane but essentially a 
private propeller plane, with a non-functioning transponder 
caused the evacuation of the Capitol and all of the Senate and 
House buildings. I had a constituent in my office who was 6\1/
2\ months pregnant who had to try to make, along with the rest 
of us, this rapid escape. People were being told to evacuate 
the Capitol, take off their shoes and run for their lives.
    And then we find out that it is a plane that has gotten 
somehow, and I was not aware this was even an option, 
permission from somebody--I guess FAA--to land at National 
Airport.
    I just find it incredible, with all due respect to a 
governor or any governor, who is coming in for a funeral 2 days 
later who, in my opinion and frankly for taxpayers purposes 
ought to be on a commercial plane, but who chooses to fly in 
for whatever reasons on a State plane can get permission to 
land at National Airport.
    I have flown, I think, about four or five times on non-
public private planes, a couple times myself, which I paid for 
myself, and a couple of times with other senators. We flew out 
of Dulles and the general aviation there. And I thought that 
the security there being quite contrary to what it is at the 
commercial sites. I was concerned about that option, the 
possibility of somebody going through there with something and 
taking over one of those planes. But I thought at least it is 
Dulles.
    I am just astonished that we are allowing planes other than 
the regularly scheduled commercial planes to come in and out of 
National Airport.
    I wonder if you would either yourself, please, or ask 
somebody who is responsible for those decisions, to give me in 
writing--and you can send it to the Committee Chairman--the 
criteria for making those permissions.
    Mr. Stone. Yes, sir.
    We have a waiver program that applies and we will make sure 
that we provide that briefing on the criteria for it and also 
the data on how often we have been approving that.
    We have provided that once in the context of the reopening 
of general aviation at Reagan. There were a number of questions 
about that waiver program and we will prepare that briefing.
    Senator Dayton. So general aviation now operates out of 
Reagan?
    Mr. Stone. No, the briefing on general aviation at Reagan 
had, as its sub-context, are there any aircraft that currently 
are allowed to land there on the waiver program? And so we have 
a briefing that we can provide for you on that, sir.

                         INSERT FOR THE RECORD

                       Response to Senator Dayton

    Waiver for General Aviation flights in Ronald Reagan Washington 
National Airport (DCA):
    Although General Aviation (GA) is generally prohibited from 
operating into and out of DCA, TSA recognizes that certain exceptions 
must be made. Accordingly, a process has been implemented whereby some 
general aviation and commuter aircraft are permitted access into Reagan 
National Airport on a case-by-case basis. The waiver program is an 
inter-agency process in which TSA and FAA work closely together to 
ensure that the National Capital Region airspace remains secure while 
at the same time allowing a limited number of GA flights to operate 
within the Flight Restricted Zone (a radius of approximately 15 
nautical miles centered on the Reagan National Airport navigational 
beacon) or into Reagan National Airport. These waivers are issued on a 
very limited basis for very specific purposes and only when very 
stringent security procedures have been implemented.
    For GA planes that operate in or out of DCA, a waiver request must 
be filed with TSA. Once a submission is received, TSA determines 
whether the applicant satisfies one of the three possible categories 
that would make an applicant eligible for a waiver, based upon the 
requested purpose and need for a waiver. Those categories include 
special/classified operations, government operations, and elected 
officials.\1\ If an applicant does not fit into one of these three 
categories, he or she is not eligible for a waiver and TSA does not 
forward the waiver request to the FAA. However, if the applicant is 
eligible, the pilot and crew are vetted through the FBI National Crime 
Information Center (NCIC), terrorist databases, and the No-Fly and 
Selectee lists to ensure that known or potential threats are not given 
waivers. Passengers are also checked against the No-Fly and Selectee 
lists.
---------------------------------------------------------------------------
    \1\ A single waiver for Construction Support Operations was granted 
for permission to pick-up and drop off rigging at Signature's General 
Aviation Terminal at DCA related to a heavy lift operation involving 
the installation of a rooftop air-conditioning unit for a building in 
Arlington, VA. A law enforcement officer was on board the aircraft for 
the flight.
---------------------------------------------------------------------------
    If these checks come back without derogatory information, an 
approval number is assigned to the flight and a waiver request form is 
drafted for delivery to the FAA. If the FAA approves and issues a 
waiver, the TSA Office of Airspace Security inputs the waiver into the 
``Master List'' and then notifies the FAA, National Capital Region 
Coordination Center (NCRCC), and Potomac TRACON of the waiver 
authorization.
    All waivers are issued with strict compliance instructions for the 
pilot. Specifically, no later than one hour prior to flight, the pilot 
of a scheduled flight operating under a waiver is required to contact 
both the NCRCC and Potomac TRACON in order to inform both entities of 
the intended flight plan. The waiver also outlines other communications 
requirements related to operations in the area. When a flight with a 
waiver is operating within or approaching the Washington Air Defense 
Identification Zone (ADIZ) (a ring approximately 30 miles around 
Washington, DC) or FRZ, the NCRCC, based at TSA's Transportation 
Security Operations Center, can track the flight and determine the 
identity of the aircraft based upon the information provided before the 
flight and if the aircraft's transponder is squawking. Additional 
security protections exist in that all general aviation flights that 
operate into and out of Reagan National Airport must have armed law 
enforcement officers on board. Furthermore, FAA has recently mandated 
that all aircraft entering the Washington ADIZ, including aircraft 
operating under waivers into or out of DCA, must have an operable 
transponder with automatic altitude reporting capability.

    Senator Dayton. I appreciate that. Thank you.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. If I could follow up on Senator Dayton's 
comments with respect to the governor's airplane----
    Senator Dayton. Former governors from Delaware certainly 
should be granted that.
    Senator Carper. When I was governor of Delaware people 
would say to me at governors meetings, talk to me about your 
State airplane, Governor. And Delaware is the second smallest 
State in the Union and I would always say Delaware's State 
plane is a glider.
    Chairman Collins. Which you personally flew.
    Senator Dayton. I hope it has a transponder anyway.
    Senator Carper. Admiral, it is good to see you again. 
Thanks for coming out.
    I was kidding the Admiral when we had a chance to meet 
earlier this week, I said does your wife know that you are 
taking on this responsibility? He assured me that she did and I 
see that she is here today. And I just want to acknowledge your 
presence and thank you for your willingness to share with our 
country a very good man for a long time and for your 
willingness to share him with us for a little bit longer.
    When we met, I did not have a chance to talk to you at all 
about rail security. I live in a part of the country where a 
lot of people do ride the train. And during the course of this 
year some 25 million people will probably ride inner-city 
passenger rail. In the course of a day we have hundreds of 
thousands of people who are on commuter rail trains. At any 
point in a day there are probably more people on commuter 
trains and Amtrak trains going under rivers into Penn Station 
than there are in four or five C-47s fully loaded.
    And during the course of a day there will be more people 
who will use trains going in and out of Penn Station, for 
example, than will use all of New York City's airports 
combined. So the issue of rail security is of concern to us 
particularly in our part of the Nation.
    With that having been said, we have focused a lot here 
today on aviation security. I would just welcome your thoughts 
on what we ought to be doing and what we are doing. I know you 
are doing some interesting things on rail security. Just take a 
minute or two and share those with us, please.
    Mr. Stone. Yes, sir.
    Our main focus of effort is in the areas of mass transit 
and rail to address this issue. We are the modal leaders for 
both of those. And so in that capacity what I have been doing 
is talking with the head of FTA and FRA on how we can partner 
on your existing programs that you have in order for us to 
further mitigate risk in the short-term.
    To date, our efforts have been on intelligence sharing, to 
have a weekly teleconference with stakeholders to share what we 
know about intelligence and threats to the mass transit and 
rail arena.
    In addition to that intel sharing, the work that we have 
been doing at New Carrollton and Union Station is critically 
important because it represents the ability for us to use 
technology to mitigate the risk. As we have seen in Moscow and 
Madrid, that risk is real and we need to have technologies that 
we have experimented with and marry them up with people so that 
we have a tool in our toolbox, particularly if we have 
intelligence and threat information that indicates interest in 
a particular area, that we might have an exportable capability 
that the Secretary can then use as he sees appropriate.
    And so my game plan on that, as a result of New Carrollton 
and now what we are doing at Union Station and next month what 
we are doing in putting equipment actually on a car, is to be 
able to marry up that equipment with TSA screeners--as the 
screeners that we have used at New Carrollton and Union Station 
are part of our national screening force and they have been 
trained in this area--is to have that exportable capability 
then to go forth wherever we think we need to have it.
    I think that is a very good short-term approach that if 
someone says in 2 weeks: ``What can you do to enhance the 
security in an area?'' that we have that.
    That coordination with FTA and FRA, as far as compliance, 
is key because they have already got a number of inspectors 
that have been out. They know the arena. We are partnering with 
them to form these partnership assist teams in which we can go 
out into a particular area and evaluate where they stand with 
regard to the recent security directives that we put out for 
mass transit and rail.
    As so these partnership assist teams were not meant to just 
provide a list in which entities have to go work on but they 
are meant to really understand the problem with those that are 
dealing with it every day, whether it be Amtrak or a subway 
system. We really want to understand what the frustrations are 
and the shortfalls and how much risk that we are living with in 
these particular areas.
    And so an emphasis on forming these assist teams and 
getting them up there and understanding what risk we have and 
where we think we need to mitigate it is also part of that 
philosophy.
    But we as an organization at TSA, whether it is aviation, 
mass transit or highway or maritime, realize that that 
intermodal connection is key. So HAZMAT truck drivers and our 
responsibilities which we are currently undertaking to ensure 
that HAZMAT drivers and their interface with the rail industry 
is covered.
    The stand up this year of the TWIC program, the 
Transportation Worker Identification Credential where we intend 
on having this pilot stood up this fall, where we have these 
cards so that at these key intermodal places, in order to gain 
access, these cards have to be produced.
    This is all part, I think, of a strategy to mitigate the 
risk in not just aviation but in all intermodal aspects of 
transportation.
    Senator Carper. As my time expires, let me just leave you 
with this thought. Over the last several years there have been 
over 100 terrorist attacks against rail operations around the 
world. Most everyone is familiar with what happened in the 
tragedy in Madrid. We know of threats against our own rail 
systems here.
    And it is just important that as we focus on threats to 
other modes of transportation that we be mindful of the threat 
that we face on rail.
    Madam Chairman, I have a statement as well that I would 
like to ask unanimous consent to have in the record.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Carper follows:]

                  PREPARED STATEMENT OF SENATOR CARPER

    Thank you, Madam Chairman. And thank you, Admiral Stone, for being 
here today. We appreciate your service to our country and your 
willingness to continue that service by taking the lead in a very 
challenging area.
    As my colleagues are aware, September 11 was a wake up call in a 
number of respects. Among other things, that tragic day pointed out 
some glaring vulnerabilities in our nation's air transportation system. 
I'm proud of the fact that Congress and the President worked swiftly in 
the days following the attacks to address some of those 
vulnerabilities. The creation of the Transportation Security 
Administration was a big part of those efforts. Thanks to Admiral 
Stone, his predecessor Admiral Loy and the thousands of hard working 
men and women at TSA, we are mindful ever time we visit an airport or 
board an airplane of the work we have done to make air travel safer in 
this country.
    Madam Chairman, I believe we had another wake up call in the area 
of transportation security this past March when terrorists placed bombs 
on commuter trains in Madrid, Spain, killing nearly 200 people. I 
firmly believe that we have an obligation to heed that wake up call and 
take the steps necessary to ensure that Americans who ride trains are 
as safe as those that travel by air or any other mode of 
transportation.
    Likewise, citizens across America deserve to know that the 
thousands of rail shipments carrying hazardous materials that pass 
through their communities on a daily basis are as secure as is 
reasonably possible. Amtrak, freight railroads, and local transit 
agencies are doing all that they can to strengthen the security of 
their systems, but the Federal Government, specifically the Department 
of Homeland Security and the TSA, must do more to help them, as we have 
done with other transportation sectors.
    At his confirmation hearing before this Committee this past 
November, Admiral Loy acknowledged our nation's rail security needs and 
said rail would need to be a part of the transportation security plan 
that Homeland Security is apparently developing. At that same hearing, 
however, he hinted that it probably is not possible to make rail as 
secure as the aviation sector, saying we should focus more on how to 
recover from an attack than on how to prevent one.
    While this statement was alarming, Admiral Loy made a valid point. 
It is not possible, nor necessarily desirable, to implement exactly the 
same kinds of security measures at train stations as we have at 
airports. However, there is much we can do and I have not seen a 
concerted effort at Homeland Security to strengthen rail security using 
all available and reasonable means. In a lot of ways, our nation's rail 
infrastructure is probably as vulnerable today as it was on September 
10, 2001.
    To date, the Department of Homeland Security has been unable to 
tell me the amount of resources and the number of staff that are 
specifically dedicated to rail security. To my knowledge, they have not 
undertaken a coordinated, systematic assessment of the vulnerabilities 
of our national passenger and freight railroads, beyond ad hoc local 
efforts. In addition, no funds other than those granted to Amtrak to 
reimburse security costs directly associated with September 11 have 
been made available for increased intercity passenger rail security. In 
fact, when my staff recently asked Homeland Security officials, they 
said that they were not sure if Amtrak was even eligible for funds from 
the Department through any existing grant program. President Bush's FY 
05 budget, like its predecessors, requests no specific funding for rail 
security efforts.
    The Department of Homeland Security issued a series of security 
directives just last month designed to protect our rail systems from 
potential terrorist attacks. These requirements, however, appear 
largely to require actions already taken by most rail and transit 
agencies. Requiring that rail operators remove trash cans, inspect 
their facilities and make use of bomb-sniffing dogs, as the directives 
do, are positive steps. But these efforts fall short of the critical 
capital investments and security operations funding that are needed to 
protect railroad and transit passengers. In addition, the directives 
are not accompanied by any additional Federal funding for rail and 
transit security. Thus, the railroads and transit agencies will 
continue to be forced to spend scarce funds to pay for security 
improvements, including these recent unfunded mandates.
    Madam Chairman, we need to begin a serious effort to help 
railroads, states, cities, and transit agencies pay for key rail 
security efforts. Many rail operators, especially Amtrak, barely have 
enough resources to operate from day to day. We can't expect them to 
shoulder 100 percent of their security costs, just as we don't expect 
the aviation industry to cover all of its security costs.
    I am a strong supporter of two important pieces of legislation that 
would give rail operators the resources they need to cover some of 
those costs. S. 2273, a bill reported out of the Commerce Committee 
unanimously on April 8, requires a comprehensive vulnerability 
assessment of our nation's rail infrastructure and authorizes Homeland 
Security to award $350 million in grants for security improvements. It 
also includes $667 million for improvements to the rail tunnels in NYC, 
Baltimore and DC and authorizes studies on passenger screening and 
steps taken in other countries to improve rail security. S. 2453, a 
transit security bill reported out of the Banking Committee unanimously 
on May 6, requires Homeland Security to begin taking a role in transit 
security and to begin awarding grants to transit agencies for security 
enhancements. I look forward to hearing Admiral Stone's views on these 
two bipartisan efforts.
    More than two years after September 11--and more than two months 
after Madrid--rail security remains a major vulnerability. This 
vulnerability remains an Achilles heel in our nation's efforts to 
secure our homeland. I hope Admiral Stone can commit today to take a 
leadership role in this area's work with this Committee and all of our 
colleagues to begin to tackle this difficult problem.

    Senator Carper. Just in closing, I would say I welcome your 
nomination. I appreciated the chance to get to meet you and I 
look forward to working with you.
    Mr. Stone. Thank you, Senator. I appreciate that.
    Chairman Collins. Thank you, Senator.
    Admiral I want to follow-up on two issues that have been 
raised before turning to a completely different issue.
    One, I want to echo the concerns expressed by my colleagues 
for the need for TSA to promptly issue standards governing the 
basic training for flight attendants. All of us who fly 
regularly back to our States have had flight attendants 
approach us and express concern about the adequacy of training. 
They are, after all, on the front lines if there is a terrorist 
attack on an airline. It seems to me that the Department, the 
TSA, needs to act promptly to ensure that minimum standards are 
established for that basic training.
    I know you have done a lot of work on the advanced training 
but it seems to me that is putting the cart before the horse, 
and we need to get the standards for the basic training in 
place as soon as possible.
    So I just wanted to express my personal concern and 
reinforce the points made by my colleagues.
    The second issue I want to follow-up on was raised by my 
friend and colleague, Senator Akaka, and that is the transition 
that some airports are going to make from using Federal 
screeners to private contractors to perform screening.
    The Federal Government has obviously made a substantial 
investment in the training, hiring and deployment of Federal 
screeners. Can you tell us whether Federal screeners will have 
the right of first refusal to stay on with a private contractor 
taking over screening at a particular airport?
    Mr. Stone. Madam Chairman, it is our intent to have the 
screeners have priority for that job, first priority for that 
job. We intend to follow-up on that.
    I think that is absolutely critical, as I talk with our 
screeners in the workforce and their anxiety and churn, and the 
tremendous investment that we have made in the screeners who 
are true patriots, we want to make sure that that priority for 
if an airport does choose to go from Federal to privatized 
screening, and that is approved, that we have them have that 
priority.
    Senator Collins. I am glad to hear that. I think there is 
considerable anxiety among the workforce, and your assurances 
are very important.
    I would ask that, as you proceed with those plans, you keep 
the Committee informed. This Committee not only has oversight 
responsibility for the Department of Homeland Security, but it 
is also responsible for the laws that govern our Civil Service. 
So we have a dual interest in this important issue.
    Finally, I want to raise an issue that affects my state of 
Maine. As you know, the coast of Maine is dotted with islands. 
We have more than 3,000 of them. And while most of them are 
uninhabited, many of them are thriving communities where the 
residents commute from the island to the mainland every day for 
jobs and for school.
    The island residents of many of our islands up and down the 
coast are concerned about the impact of the new security 
requirements imposed by the Maritime Transportation Security 
Act. I know the Coast Guard has the lead responsibility here 
and I have met with Admiral Collins to discuss this issue, but 
I want to make you aware of it as well.
    The residents are concerned about the additional burden and 
the inconvenience that will be imposed by the new security 
measures. Keep in mind that in many cases these individuals are 
daily commuters from, for example, Peaks Island to Portland, 
Maine.
    They are also concerned about the increased cost of ferry 
tickets that are caused by the need to pay for the new security 
measures.
    And they are also concerned about whether the threat really 
justifies imposing this burden and the inconvenience of the 
cost. If the threat is sufficient, then obviously the cost is 
worth it, the inconvenience is worth it. But many of them 
question whether there really is a sufficient threat to justify 
the increased costs and burden.
    What assurances can you give my constituents that the new 
Department will take steps to not unduly disrupt the lives of 
individuals living on the islands off the coast of Maine? How 
will you strike the right balance between imposing a certain 
level of security and yet not making it so burdensome and 
costly that it really is a problem?
    Mr. Stone. Madam Chairman, I am a big proponent that when 
we make risk-based decisions that they must be based on the 
criticality of the assets, the vulnerability and the threat and 
that we not then have undue measures for areas where that risk 
is not present.
    I met with Vice Admiral Allen from the Coast Guard late 
last week to talk to him about measures concerning ferries as 
well as cruise lines. I am very sensitive to the issue that you 
raised and pledge to ensure that that is part of the thinking 
when decisions are made on security.
    Chairman Collins. Thank you. I look forward to working 
further with you on that issue and the many others that we have 
raised this morning.
    Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman. I have 
just one more question.
    Also, I want to ask that a question for Senator Fitzgerald 
be entered into the record here.
    Chairman Collins. Without objection.
    Senator Akaka. Admiral, a February Government Executive 
article reported that the recertification program for TSA 
screeners is structured in a way to ensure that employees pass. 
One employee was quoted as saying that the tests are a joke and 
that TSA waters down the tests if screeners do not pass on 
their first try.
    Have you looked into this report, and is it accurate? 
Further, what steps will you take to ensure that screeners are 
knowledgeable about their jobs?
    Mr. Stone. The recertification program is a program we are 
extremely proud of. The way it was depicted in that article, I 
thought, was inaccurate.
    We have focused on this program because it gets to the 
issue of the credibility of our screening force and whether or 
not the standard operating procedures, the training on the x-
ray machine and how we do our secondary screening protocols, 
whether those standards are reinforced throughout the year. And 
so an annual recertification program is our means of ensuring 
the American people that those standards are maintained.
    We looked at the way in which the most recent program was 
completed and believe it was done in a very thoughtful manner 
and that the standards were not compromised in any way.
    In fact, we had a number of screeners who thought that they 
would lose very good people because of the rigorous 
requirements of that recertification program.
    So we are constantly, though, eager to hear feedback on how 
we might improve it for the next year's cycle. But we believe 
that the recertification program that we most recently executed 
is very credible and should be very reassuring to the traveling 
public that we have got our eye on the ball with regard to 
keeping the high standard of our screeners.
    Senator Akaka. Thank you very much for all of your 
responses. I want to wish you well and urge the Chairman to 
move your confirmation as fast as we can. Thank you.
    Chairman Collins. Thank you Senator.
    I want to thank you, Admiral Stone, for appearing before 
the Committee today.
    There will be some additional questions from myself and 
other Members for the record. Without objection, the record 
will be kept open until 5 p.m. tomorrow for the submission of 
additional questions and for your responses to them.
    We do appreciate your cooperation.
    And I want to join my colleagues in thanking you for your 
willingness to take on what is a very tough and vitally 
important job. I noticed that none of us is eager to take your 
place in taking on this responsibility. It is enormously 
important and, like Senator Akaka, I have heard from TSA 
employees on the front lines who have been very pleased with 
your openness and your leadership as you have been Acting 
Administrator. I think that bodes well for your future 
leadership of this vital agency.
    So thank you and this hearing is now adjourned.
    [Whereupon, at 1:06 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5191.001

[GRAPHIC] [TIFF OMITTED] T5191.002

[GRAPHIC] [TIFF OMITTED] T5191.003

[GRAPHIC] [TIFF OMITTED] T5191.004

[GRAPHIC] [TIFF OMITTED] T5191.005

[GRAPHIC] [TIFF OMITTED] T5191.006

[GRAPHIC] [TIFF OMITTED] T5191.007

[GRAPHIC] [TIFF OMITTED] T5191.008

[GRAPHIC] [TIFF OMITTED] T5191.009

[GRAPHIC] [TIFF OMITTED] T5191.010

[GRAPHIC] [TIFF OMITTED] T5191.011

[GRAPHIC] [TIFF OMITTED] T5191.012

[GRAPHIC] [TIFF OMITTED] T5191.013

[GRAPHIC] [TIFF OMITTED] T5191.014

[GRAPHIC] [TIFF OMITTED] T5191.015

[GRAPHIC] [TIFF OMITTED] T5191.016

[GRAPHIC] [TIFF OMITTED] T5191.017

[GRAPHIC] [TIFF OMITTED] T5191.018

[GRAPHIC] [TIFF OMITTED] T5191.019

[GRAPHIC] [TIFF OMITTED] T5191.020

[GRAPHIC] [TIFF OMITTED] T5191.021

[GRAPHIC] [TIFF OMITTED] T5191.022

[GRAPHIC] [TIFF OMITTED] T5191.023

[GRAPHIC] [TIFF OMITTED] T5191.024

[GRAPHIC] [TIFF OMITTED] T5191.025

[GRAPHIC] [TIFF OMITTED] T5191.026

[GRAPHIC] [TIFF OMITTED] T5191.027

[GRAPHIC] [TIFF OMITTED] T5191.028

[GRAPHIC] [TIFF OMITTED] T5191.029

[GRAPHIC] [TIFF OMITTED] T5191.030

[GRAPHIC] [TIFF OMITTED] T5191.031

[GRAPHIC] [TIFF OMITTED] T5191.032

[GRAPHIC] [TIFF OMITTED] T5191.033

[GRAPHIC] [TIFF OMITTED] T5191.034

[GRAPHIC] [TIFF OMITTED] T5191.035

[GRAPHIC] [TIFF OMITTED] T5191.036

[GRAPHIC] [TIFF OMITTED] T5191.037

[GRAPHIC] [TIFF OMITTED] T5191.038

[GRAPHIC] [TIFF OMITTED] T5191.039

[GRAPHIC] [TIFF OMITTED] T5191.040

[GRAPHIC] [TIFF OMITTED] T5191.041

[GRAPHIC] [TIFF OMITTED] T5191.042

[GRAPHIC] [TIFF OMITTED] T5191.043

[GRAPHIC] [TIFF OMITTED] T5191.044

[GRAPHIC] [TIFF OMITTED] T5191.045

[GRAPHIC] [TIFF OMITTED] T5191.046

[GRAPHIC] [TIFF OMITTED] T5191.047

[GRAPHIC] [TIFF OMITTED] T5191.048

[GRAPHIC] [TIFF OMITTED] T5191.049

[GRAPHIC] [TIFF OMITTED] T5191.050

[GRAPHIC] [TIFF OMITTED] T5191.051

[GRAPHIC] [TIFF OMITTED] T5191.052

[GRAPHIC] [TIFF OMITTED] T5191.053

[GRAPHIC] [TIFF OMITTED] T5191.054

[GRAPHIC] [TIFF OMITTED] T5191.055

[GRAPHIC] [TIFF OMITTED] T5191.056

[GRAPHIC] [TIFF OMITTED] T5191.057

[GRAPHIC] [TIFF OMITTED] T5191.058

[GRAPHIC] [TIFF OMITTED] T5191.059

[GRAPHIC] [TIFF OMITTED] T5191.060

[GRAPHIC] [TIFF OMITTED] T5191.061

[GRAPHIC] [TIFF OMITTED] T5191.062

[GRAPHIC] [TIFF OMITTED] T5191.063

[GRAPHIC] [TIFF OMITTED] T5191.064

[GRAPHIC] [TIFF OMITTED] T5191.065

[GRAPHIC] [TIFF OMITTED] T5191.066

[GRAPHIC] [TIFF OMITTED] T5191.067

[GRAPHIC] [TIFF OMITTED] T5191.068

[GRAPHIC] [TIFF OMITTED] T5191.069

[GRAPHIC] [TIFF OMITTED] T5191.070

[GRAPHIC] [TIFF OMITTED] T5191.071

[GRAPHIC] [TIFF OMITTED] T5191.072

[GRAPHIC] [TIFF OMITTED] T5191.073

[GRAPHIC] [TIFF OMITTED] T5191.074

[GRAPHIC] [TIFF OMITTED] T5191.075

[GRAPHIC] [TIFF OMITTED] T5191.076

[GRAPHIC] [TIFF OMITTED] T5191.077

[GRAPHIC] [TIFF OMITTED] T5191.078

[GRAPHIC] [TIFF OMITTED] T5191.079

[GRAPHIC] [TIFF OMITTED] T5191.080

[GRAPHIC] [TIFF OMITTED] T5191.081

[GRAPHIC] [TIFF OMITTED] T5191.082

[GRAPHIC] [TIFF OMITTED] T5191.083

[GRAPHIC] [TIFF OMITTED] T5191.084

[GRAPHIC] [TIFF OMITTED] T5191.085

[GRAPHIC] [TIFF OMITTED] T5191.086

[GRAPHIC] [TIFF OMITTED] T5191.087

[GRAPHIC] [TIFF OMITTED] T5191.088

[GRAPHIC] [TIFF OMITTED] T5191.089

[GRAPHIC] [TIFF OMITTED] T5191.090

[GRAPHIC] [TIFF OMITTED] T5191.091

[GRAPHIC] [TIFF OMITTED] T5191.092

[GRAPHIC] [TIFF OMITTED] T5191.093

[GRAPHIC] [TIFF OMITTED] T5191.094

[GRAPHIC] [TIFF OMITTED] T5191.095

[GRAPHIC] [TIFF OMITTED] T5191.096

[GRAPHIC] [TIFF OMITTED] T5191.097

[GRAPHIC] [TIFF OMITTED] T5191.098

[GRAPHIC] [TIFF OMITTED] T5191.099

[GRAPHIC] [TIFF OMITTED] T5191.100

[GRAPHIC] [TIFF OMITTED] T5191.101

[GRAPHIC] [TIFF OMITTED] T5191.102

[GRAPHIC] [TIFF OMITTED] T5191.103

[GRAPHIC] [TIFF OMITTED] T5191.104

[GRAPHIC] [TIFF OMITTED] T5191.105

[GRAPHIC] [TIFF OMITTED] T5191.106

[GRAPHIC] [TIFF OMITTED] T5191.107

[GRAPHIC] [TIFF OMITTED] T5191.108

[GRAPHIC] [TIFF OMITTED] T5191.109

[GRAPHIC] [TIFF OMITTED] T5191.110

[GRAPHIC] [TIFF OMITTED] T5191.111

[GRAPHIC] [TIFF OMITTED] T5191.112

[GRAPHIC] [TIFF OMITTED] T5191.113

[GRAPHIC] [TIFF OMITTED] T5191.114

[GRAPHIC] [TIFF OMITTED] T5191.115

[GRAPHIC] [TIFF OMITTED] T5191.116

[GRAPHIC] [TIFF OMITTED] T5191.117

[GRAPHIC] [TIFF OMITTED] T5191.118

[GRAPHIC] [TIFF OMITTED] T5191.119

[GRAPHIC] [TIFF OMITTED] T5191.120

[GRAPHIC] [TIFF OMITTED] T5191.121

[GRAPHIC] [TIFF OMITTED] T5191.122

[GRAPHIC] [TIFF OMITTED] T5191.123

[GRAPHIC] [TIFF OMITTED] T5191.124

[GRAPHIC] [TIFF OMITTED] T5191.125

[GRAPHIC] [TIFF OMITTED] T5191.136

[GRAPHIC] [TIFF OMITTED] T5191.137

[GRAPHIC] [TIFF OMITTED] T5191.138

[GRAPHIC] [TIFF OMITTED] T5191.139

[GRAPHIC] [TIFF OMITTED] T5191.140

[GRAPHIC] [TIFF OMITTED] T5191.141

[GRAPHIC] [TIFF OMITTED] T5191.142

[GRAPHIC] [TIFF OMITTED] T5191.143

[GRAPHIC] [TIFF OMITTED] T5191.144

[GRAPHIC] [TIFF OMITTED] T5191.145

[GRAPHIC] [TIFF OMITTED] T5191.146

[GRAPHIC] [TIFF OMITTED] T5191.126

[GRAPHIC] [TIFF OMITTED] T5191.127

[GRAPHIC] [TIFF OMITTED] T5191.128

[GRAPHIC] [TIFF OMITTED] T5191.129

[GRAPHIC] [TIFF OMITTED] T5191.130

[GRAPHIC] [TIFF OMITTED] T5191.131

[GRAPHIC] [TIFF OMITTED] T5191.132

[GRAPHIC] [TIFF OMITTED] T5191.133

[GRAPHIC] [TIFF OMITTED] T5191.134

[GRAPHIC] [TIFF OMITTED] T5191.135

[GRAPHIC] [TIFF OMITTED] T5191.147

[GRAPHIC] [TIFF OMITTED] T5191.148

[GRAPHIC] [TIFF OMITTED] T5191.149

[GRAPHIC] [TIFF OMITTED] T5191.150

[GRAPHIC] [TIFF OMITTED] T5191.151

[GRAPHIC] [TIFF OMITTED] T5191.152

[GRAPHIC] [TIFF OMITTED] T5191.153

[GRAPHIC] [TIFF OMITTED] T5191.154

[GRAPHIC] [TIFF OMITTED] T5191.155

[GRAPHIC] [TIFF OMITTED] T5191.156

[GRAPHIC] [TIFF OMITTED] T5191.157

[GRAPHIC] [TIFF OMITTED] T5191.158

[GRAPHIC] [TIFF OMITTED] T5191.159

[GRAPHIC] [TIFF OMITTED] T5191.160

[GRAPHIC] [TIFF OMITTED] T5191.161

[GRAPHIC] [TIFF OMITTED] T5191.162

[GRAPHIC] [TIFF OMITTED] T5191.163

[GRAPHIC] [TIFF OMITTED] T5191.164

[GRAPHIC] [TIFF OMITTED] T5191.165

[GRAPHIC] [TIFF OMITTED] T5191.166

[GRAPHIC] [TIFF OMITTED] T5191.167

[GRAPHIC] [TIFF OMITTED] T5191.168

[GRAPHIC] [TIFF OMITTED] T5191.169

[GRAPHIC] [TIFF OMITTED] T5191.170

[GRAPHIC] [TIFF OMITTED] T5191.171

[GRAPHIC] [TIFF OMITTED] T5191.172

[GRAPHIC] [TIFF OMITTED] T5191.173

[GRAPHIC] [TIFF OMITTED] T5191.174

[GRAPHIC] [TIFF OMITTED] T5191.175

[GRAPHIC] [TIFF OMITTED] T5191.176

[GRAPHIC] [TIFF OMITTED] T5191.177

                                 <all>

</pre></body></html>
